                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL

  .                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A-07120062
                                                                                11           Pagelof1      .




          We received an allegation that the subject's NSF proposal' contained plagiarized text.

          Our review and analysis of the subject's NSF proposal showed that the amount of possibly
          copied text was de minimis. Further analysis of another NSF proposal2 submitted by the subject
          showed no apparently copied materials.

          This case is closed and no further action will be taken.




VSF OIG Form 2 ( 1 1/02)
